Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
         REVIEW OF
  UNIVERSITY OF WASHINGTON
      MEDICAL CENTER


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                               Assistant Inspector General
                                                    for Audit Services

                                                        June 2014
                                                      A-09-13-02049
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 University of Washington Medical Center did not fully comply with Medicare requirements
 for billing inpatient services, resulting in net overpayments of approximately $2.2 million
 over more than 3 years.


WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

Our objective was to determine whether University of Washington Medical Center (the Medical
Center) complied with Medicare requirements for billing inpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Medical Center is an acute-care hospital located in Seattle, Washington. Medicare paid the
Medical Center approximately $317 million for 16,555 inpatient claims for services provided to
beneficiaries during CYs 2010 through 2012.

Our audit covered $4,526,396 in Medicare payments to the Medical Center for 157 inpatient
claims that we judgmentally selected as potentially at risk for billing errors. Of the 157 claims,
154 claims had dates of services in CYs 2010, 2011, or 2012, and 3 claims (involving inpatient
short stays) had dates of service in CY 2013.

WHAT WE FOUND

The Medical Center complied with Medicare billing requirements for 94 of the 157 inpatient
claims we reviewed. However, the Medical Center did not fully comply with Medicare billing
requirements for the remaining 63 claims, resulting in net overpayments of $2,218,829 for
CYs 2010 through 2012 (60 claims) and CY 2013 (3 claims). These billing errors occurred
primarily because the Medical Center did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors.




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                i
WHAT WE RECOMMEND

We recommend that the Medical Center:

    •   refund to the Medicare contractor $2,218,829 in net overpayments for the incorrectly
        billed inpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements.

MEDICAL CENTER COMMENTS

In written comments on our draft report, the Medical Center concurred with our
recommendations and provided the status of corrective actions that it had taken.




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)          ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................1
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 University of Washington Medical Center ................................................................2

           How We Conducted This Review..........................................................................................2

FINDINGS .........................................................................................................................................3

           Incorrect Billing of Medicare Part A for Beneficiary Stays That Should
             Have Been Billed as Outpatient or Outpatient With Observation Services........................3

           Incorrect Diagnosis-Related Groups ......................................................................................3

RECOMMENDATIONS ...................................................................................................................4

MEDICAL CENTER COMMENTS .................................................................................................4

APPENDIXES

           A: Audit Scope and Methodology ........................................................................................5

           B: Results of Review by Risk Area ......................................................................................7

           C: Medical Center Comments ...............................................................................................8




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                                                            iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether University of Washington Medical Center (the Medical
Center) complied with Medicare requirements for billing inpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays and

    •   inpatient claims paid in excess of charges.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.


Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                 1
Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

University of Washington Medical Center

The Medical Center is an acute-care hospital located in Seattle, Washington. Medicare paid the
Medical Center approximately $317 million for 16,555 inpatient claims for services provided to
beneficiaries during CYs 2010 through 2012. 1

HOW WE CONDUCTED THIS REVIEW

Our audit covered $4,526,396 in Medicare payments to the Medical Center for 157 inpatient
claims that we judgmentally selected as potentially at risk for billing errors. Of the 157 claims,
154 claims had dates of service in CYs 2010, 2011, or 2012 and 3 claims (involving inpatient
short stays, which have a higher risk of billing errors) had dates of service in CY 2013. We
focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected
16 claims to focused medical review to determine whether the services were medically
necessary. This report focuses on selected risk areas and does not represent an overall
assessment of all claims submitted by the Medical Center for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

For the details of our audit scope and methodology, see Appendix A.




1
    These data came from CMS’s National Claims History file.


Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                2
                                                   FINDINGS

The Medical Center complied with Medicare billing requirements for 94 of the 157 inpatient
claims we reviewed. However, the Medical Center did not fully comply with Medicare billing
requirements for the remaining 63 claims, resulting in net overpayments of $2,218,829 for
CYs 2010 through 2012 (60 claims) and CY 2013 (3 claims). These billing errors occurred
primarily because the Medical Center did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors. For the results of
our review by risk area, see Appendix B.

INCORRECT BILLING OF MEDICARE PART A FOR BENEFICIARY STAYS THAT
SHOULD HAVE BEEN BILLED AS OUTPATIENT OR OUTPATIENT WITH
OBSERVATION SERVICES

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 34 of 157 selected claims, the Medical Center incorrectly billed Medicare Part A for
beneficiary stays that it should have billed as outpatient or outpatient with observation services. 2
Of the 34 claims, 22 claims related to bone marrow and peripheral blood stem cell
transplantation, accounting for 95 percent of the total overpayments. 3 The Medical Center
attributed these patient admission errors primarily to hospital staff’s misunderstanding that these
procedures should be billed as inpatient. The staff believed these procedures were on Medicare’s
“Inpatient-Only” list referred to at 42 CFR § 419.22(n), which defines services that support an
inpatient admission and Part A payment as appropriate, regardless of the expected length of stay.
Consequently, hospital staff did not verify that an inpatient level of care was needed. For the
remaining 12 claims, the Medical Center attributed the patient admission errors primarily to
human error. As a result of the 34 errors, the Medical Center received overpayments of
$2,217,294. 4

INCORRECT DIAGNOSIS-RELATED GROUPS

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed


2
 Of the 34 claims, 31 claims had dates of service in CYs 2010, 2011, or 2012, and 3 claims had dates of service in
CY 2013.
3
 The Medical Center identified 6 of the 22 errors during our review. Three of these claims had dates of service in
CY 2013.
4
  The Medical Center may be able to bill Medicare Part B for all services (except for services that specifically
require an outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a
hospital outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing
Medicare Part B would have on the overpayment amount because these services had not been billed and adjudicated
by the Medicare contractor before issuance of our report.


Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                                3
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 29 of 157 selected claims, the Medical Center billed Medicare with the incorrect DRGs. The
Medical Center stated that these errors occurred because of misinterpretation of coding
guidelines or human error. As a result of these errors, the Medical Center received net
overpayments of $1,535.

                                      RECOMMENDATIONS

We recommend that the Medical Center:

    •   refund to the Medicare contractor $2,218,829 in net overpayments for the incorrectly
        billed inpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                MEDICAL CENTER COMMENTS

In written comments on our draft report, the Medical Center concurred with our
recommendations and provided the status of corrective actions that it had taken. The Medical
Center’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)          4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $4,526,396 in Medicare payments to the Medical Center for 157 inpatient
claims that we judgmentally selected as potentially at risk for billing errors. Of the 157 claims,
154 claims had dates of services in CYs 2010, 2011, or 2012, and 3 claims (involving inpatient
short stays, which have a higher risk of billing errors) had dates of service in CY 2013.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected
16 claims to focused medical review to determine whether the services were medically
necessary.

We limited our review of the Medical Center’s internal controls to those applicable to the
inpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Medical Center for Medicare reimbursement.

We conducted our fieldwork at the Medical Center from May to September 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Medical Center’s inpatient and outpatient paid claim data from CMS’s
        National Claims History file for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 157 inpatient claims for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;

    •   requested that the Medical Center conduct its own review of the selected claims to
        determine whether the services were billed correctly;




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                5
    •   reviewed the itemized bills and medical record documentation provided by the Medical
        Center to support the selected claims;

    •   discussed the incorrectly billed claims with Medical Center personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   used an independent medical review contractor to determine whether 16 selected claims
        met medical necessity requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Medical Center officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)            6
                        APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                            Claims
                                                                         Value of            With
                                                         Selected        Selected           Billing        Value of Net
                    Risk Area                            Claims          Claims             Errors        Overpayments
Inpatient Short Stays                                        110        $2,945,218             46            $1,356,375

Inpatient Claims Paid in Excess of Charges                    47         1,581,178             17                862,454

  Total                                                     157         $4,526,396             63            $2,218,829


   Notice: The table above illustrates the results of our review by risk area. In it, we have organized claims by the risk
   areas we reviewed. However, we have organized this report’s findings by the types of billing errors we found at the
   Medical Center. Because we have organized the information differently, the information in the individual risk areas
   in this table does not match precisely this report’s findings.




   Medicare Compliance Review of University of Washington Medical Center (A-09-13-02049)                                 7
                         APPENDIX C: MEDICAL CENTER COMMENTS 





              UWMedicine 





              May 15, 2014

              Lori A Ahlstrand
              Reg ional Inspector General for Audit Services
              Department of Health and Human Services
              Office ofAudit Services, Region IX
              90- 7'h Street, Suite 3-6SO
              San Francisco, C:A 94103

              RE: Report Number A-09-13-02049

              Dear Ms. Ahlstrand:

              I am responding to your April21, 2014lettcr and draft report titled "Med icare Compliance Review of
              University of Washington Medical Center." University of Washington (UW) Medicine, which includes UW
              Medical C enter, has <Ill active compliance program and is committed to full compliance with Medicare
              regulations. We appreciate the opportunity to comment on the draft report.

              We recognize that the 010 used a judgmental selection process to identify high-risk claims. We worked closely
              with your auditors over a several month period to review each case. Through this process we discovered and
              addressed a specific issue concerning bone marrow transplant admissions. As part of the resolution, we
              proactively identified six additional high-risk claims o f this type for 010 review.

              I worked with my team and UW Medicine executiw leaders to review the draft report. W e concur w ith the two
              recommendations and offer the following adclitional information about the findings and sta tus of corrective
              actions for each:

                  l. 	 The OIG recommends refunding the net overpayments for the incorrectly billed claims.
                          a. 	 We submitted corrected claims to the Medicare Contractor for each incorrectly b illed claim
                               identified in the draft report, and the appropriate payment adjustments were made. Where
                               applicable, we then submitted rcbilled olltpatient claims,

                  2. 	 The OIG recommends strengthening controls to ensure full compliance with Medicare
                       requirements.
                              Coding error§:
                              The auditors found diagnosis coding errors that led to inco rrect DRGs with a mix of overpaid
                              and underpaid inpatient claims. Feed Lack aLout the errors in general W<IS provided in
                              educational for ums to the coders as a group, and case-specific feedback was providecl to
                              ind ividual coders (ifstill employed at the hospital.) In addition, we con tinue with proactive,
                              ongoing coder education and a routine cycle of compliance program audits and coder
                              feedbadc/education.

                                                                                               Lisa Westlund, Compliance Officer
                                                                                                                     UWMediclne
                                               UW Box 358049 Sea\lle, WA 98195·8049   206.543.3098   Fax: 206.221.5172   ljw@uw.edu




M edicare Compliance R eview ofUniversity of Washington M edical Center (A-09-1 3-02049)                                              8
                                                                                                 U\VMC Response to OIG, page 2




                                Outpatient seJVices incorrectly billed as inpatient claims:

                                    a. 	 Done MmTOw Transplant Short·Stay Cases: The 22 denia ls related to this issue acco unted
                                        for $2.lM of the $2.2M overpayment identified in the report because bone marrow
                                        DRG coding (and associated payment) docs not allow for d istinction between types of
                                        bone marrow procedures with quite different intensity levels. Operationally, the 22
                                        admissions for the less intensive procedures pre-dated controls (admission sc reen ing)
                                        that had been established prior to this OIG review. In addition to the r eal-time
                                        admission medical necessity screening process, the clinical resource management
                                        (C::RM) team nnd bone mmrow transplant clinical teams have been edtH~ated that
                                        inpatient admission is not required for Medicare payment for bone marrow tnmsplant
                                        procedures. Finally, the C ompliance Program implemented data monitoring to
                                        identifY and review any inpatient bone marrow transplant cases with a short leng th of
                                        stay.

                                    b. 	 Other Short StaJ Cases: Several of the 12 denied short stay cases resulted from human
                                         errors that generated inpatient claims in spite of inte rna l reviews that determined
                                         inpatient was not the correct care setting. These cases were used to conduct a process
                                         review with 1·ctraining and other improvements as warranted. In addition, the Patient
                                         Financial Services Quality Auditor now performs a monthly audit of all short stay
                                         inpatient claims to assure l'ach claim is consistent with the internal review
                                         determination. The remaining denied short stay cases were discussed by the Clinical
                                         Resource Management (CRM) team in routine meetings for ongoing education and
                                         calibration regarding real-time admission screening.

              We believe the actions described above have furthered our ongoing efforts to submi t accurate claims. In
              closing, we would like to thank your staff for the ir professionalism, their collabo rative approach t o the rev iew,
              and their availability to answer questions throughou t the process.

              Sincerely,




              Lisa Westlund
              Compliance Officer
              UW Medicine

              cc: 	   Sue C lau sen
                      Paul Ishizuka
                      Lor i Mitchdl
                      Johnese Spisso
                      Stephen Zieniewicz




M edicare Compliance R eview ofUniversity of Washington M edical Center (A-09-13-0204 9)                                              9
